                     AUDIT OF SBA’S ACQUISITON, DEVELOPMENT
                        AND IMPLEMENTATION OF THE JOINT
                        ACCOUNTING AND ADMINISTRATIVE
                               MANAGEMENT SYSTEM

                                 AUDIT REPORT NUMBER 3-32

                                            JUNE 30, 2003




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
                           U.S. SMALL BUSINESS ADMINISTRATION
                               OFFICE OF INSPECTOR GENERAL
                                    Washington, DC 20416




                                                                AUDIT REPORT
                                                          ISSUE DATE: June 30, 2003
                                                          REPORT NUMBER: 3-32


To:            Chief Operating Officer

               Thomas A. Dumaresq
               Chief Financial Officer

               Steven D. Galvan
               Chief Information Officer

Through:       Lisa M. Goeas
               Chief of Staff


From:          Robert Seabrooks /s/ Original signed
               Assistant Inspector General for Auditing

Subject:       Audit of SBA’s Acquisition, Development and Implementation of the Joint
               Accounting and Administrative Management System

        Attached is a copy of the subject audit report. The report contains six findings with two
recommendations addressed to the Chief Operating Officer, five recommendations to the Chief
Financial Officer, and nine recommendations to the Chief Information Officer. The Chief
Financial Officer’s and Acting Chief Information Officer’s joint response to the draft report is
synopsized in the report and included in its entirety at Appendix A. The Chief Operating Officer
did not provide a response to the draft report because the position was vacant when the response
was due. Accordingly, the recommendations addressed to the Chief Operating Officer will be
addressed during the audit follow-up and resolution process.

        The recommendations in this audit report are based on the conclusions of the Auditing
Division. The recommendations are subject to review, management decision and action by your
office in accordance with existing Agency procedures for audit follow-up and resolution.

       Please provide us your management decision for each recommendation addressed to you
within 30 days. Your management decisions should be recorded on the attached SBA Forms
1824, “Recommendation Action Sheet,” and show either your proposed corrective action and
target date for completion, or explanation of your disagreement with our recommendations.

      Any questions or discussion of the findings and recommendations contained in the report
should be directed to Robert G. Hultberg, Director, Business Development Programs Group at
(202) 205-7577.

Attachment
                       AUDIT OF SBA’S ACQUISITION, DEVELOPMENT AND
                        IMPLEMENTATION OF THE JOINT ACCOUNTING
                         AND ADMINISTRATIVE MANAGEMENT SYSTEM

                                                        Table of Contents

                                                                                                                          Page

SUMMARY ......................................................................................................................i


INTRODUCTION

          A. Background ......................................................................................................1

          B. Objectives and Scope ......................................................................................2


RESULTS OF AUDIT


Finding 1 – The BTIC Received Biased and Misleading Information
            for Selecting a Financial Accounting System ...............................................3

Finding 2 – Conflicts of Interest in Selection and Implementation
            of a Financial Accounting System.................................................................9

Finding 3 – Demonstrated JA2MS Database and all Software
            Purchased not Implemented ........................................................................12

Finding 4 – JA2MS System Security does Not Fully Protect SBA ................................15

Finding 5 – System Testing Prior to Implementation was Not Adequate ......................18

Finding 6 – JA2MS is not Fully JFMIP Compliant and does not Meet
            System Requirements ..................................................................................20


APPENDIX

     A. Management Response to Draft Report
     B. Report Distribution
                                            SUMMARY

         In October 2001, SBA implemented Phase I of the Joint Accounting and Administrative
Management System (JA2MS) to replace SBA’s Federal Financial System (FFS). JA2MS was
part of the Systems Modernization Initiative (SMI) and SBA’s intention was to procure a
Commercial-Off-The-Shelf (COTS) product. SBA further decided that JA2MS would integrate
SBA’s business units such as finance, procurement, and human resource functions. JA2MS
would be developed in three phases: (I) implement a financial accounting system to replace FFS,
(II) integrate procurement and grants, travel, and human resource functions, and (III) implement
a data warehouse capability. The JA2MS project was estimated to cost $6.4 million when all
three phases were expected to be implemented in FY 2002, however Phases II and III have been
put on hold due to cost issues from Phase I.

        The audit objectives were to determine whether: (1) the selection methodology and the
supporting documentation indicated that the system selected would deliver the most functionality
for the least cost, (2) there were adequate management controls over the process of acquiring and
implementing JA2MS, and (3) the system performs as expected and meets user requirements.

       The audit disclosed the following:

   •   SBA’s Business Technology Investment Committee (BTIC) received biased and
       misleading information on costs, benefits, and alternatives on which to base its decision
       to select a new financial accounting system.

   •   The JA2MS selection process was not free of inherent bias or conflicts of interest towards
       one competing product because SBA did not require a separation of duties by contractors
       in the system selection process, system requirements collection process and the design
       and implementation phase of the JA2MS system.

   •   SBA did not implement the Oracle database management system that had been
       demonstrated and approved by the BTIC. Additionally, SBA purchased and bought
       license updates for software modules which it has never implemented.

   •   JA2MS was not fully accredited by the Chief Financial Officer (CFO) prior to being put
       into production at its permanent site. Additionally, other aspects of JA2MS may not
       allow for complete confidentiality of sensitive SBA personnel information.

   •   JA2MS was placed into production without sufficient and complete testing of functions
       and interfaces.

   •   JA2MS has not fully met JFMIP requirements, even though Oracle Federal Financials is
       certified as being JFMIP compliant. Additionally, JA2MS does not meet a number of
       major system requirements including many of the aspects of an Enterprise Resource
       Planning (ERP) system.




                                              i
       We made recommendations to the Chief Operating Officer (COO) to:

   •   Separate system recommendation activities from system design and implementation
       activities to ensure that the same entity does not perform duties with conflicting roles and
       responsibilities.

       We made recommendations to the Chief Information Officer (CIO) to:

   •   Require that in the future, entities that prepare business case or cost benefit analysis
       documentation report directly to the CIO rather than the SBA sponsoring office.
   •   Create a quality control process to validate the estimations and projections in business
       case or cost benefit analysis.
   •   Update the SBA Systems Development Manual (SDM) to add emphasis that business
       case or cost benefit analysis must fully and fairly evaluate all competing alternatives, are
       written in a neutral manner so as not to unduly influence the BTIC, and contain cost and
       benefit estimations which are realistically and conservatively estimated and determined.

       We made recommendations to the Chief Financial Officer to:

   •   Review the JA2MS procurement contract to determine if annual license fees for software
       purchased but not currently implemented can be suspended until the software is actually
       implemented.
   •   Seek monetary recovery from World Wide Technology, Inc., or an in-kind contribution
       of additional Oracle Discoverer licenses to compensate for the unusable Financial
       Analyzer software.


        The Chief Financial Officer and Acting Chief Information Officer provided a joint
response to the draft report. The Chief Operating Officer did not provide a response to the draft
report as the position is currently vacant. Recommendations to the Chief Operating Officer will
be resolved during the audit resolution process. Management agreed or partially agreed to all but
three recommendations in the draft report. We subsequently modified two of our
recommendations and dropped one recommendation to address management’s concerns.




                                               ii
                                  INTRODUCTION

A. Background

       For a number of years, SBA utilized American Management Systems’ (AMS)
Federal Financial System (FFS) to provide administrative accounting capabilities. FFS
performed this through several subsystems and system interfaces including budget,
general ledger, NFC payroll interface, automated disbursements, accounts payable,
accounts receivable, and travel.

        The Department of Treasury (Treasury) Financial Management Service (FMS)
operated FFS through a cross-servicing agreement with SBA and was responsible for
maintaining the related software and hardware in Hyattsville, Maryland. In 1997,
Treasury informed SBA that the Hyattsville data center would cease operations sometime
in the future. By 1999, SBA began to explore alternatives to FFS as part of its Systems
Modernization Initiative (SMI). In June 2000, Treasury informed SBA that FMS would
cease its data center operations in September 2002.

        As part of SMI, SBA began the Joint Accounting and Administrative
Management System (JA2MS) initiative. JA2MS would be a Commercial-Off-The-Shelf
(COTS) product to replace FFS. SBA further decided that JA2MS would integrate SBA’s
business units through Enterprise Resource Planning1 (ERP) software. ERP was
envisioned to control finance, procurement, and human resource functions. JA2MS
would be developed in three phases: (I) implement a financial accounting system to
replace FFS, (II) integrate procurement and grants, travel, and human resource functions,
and (III) implement a data warehouse capability. The JA2MS project was estimated to
cost $6.4 million when all three phases were fully implemented in FY 2002.

      The JA2MS development project was approved using Clinger-Cohen guidelines
and SBA’s Business Technology Investment Council (BTIC).

       SBA hired SRA International (the Contractor) in 1999 to analyze SBA’s current
financial accounting capabilities and requirements, recommend a replacement system
through a business case or cost and benefits analysis, and implement the system.

        The Contractor presented a business case (e.g. cost benefits analysis) that
documented the results of comparing four alternatives to the current FFS system. The
four alternative packages analyzed were from Oracle Corporation, AMS, PeopleSoft and
SAP. Oracle was rated highest and recommended as the COTS/ERP solution for JA2MS
development. The recommendation to implement Oracle and outsource the hosting and
maintenance was approved by SBA, and documented in the System Acquisition Decision
Paper on June 26, 2000. The JA2MS business case provided analyses based upon all
three phases of JA2MS being developed and implemented in the three-year projected time
frame.

1
  An integrated information system that serves all departments within an enterprise.
Evolving out of the manufacturing industry, ERP implies the use of packaged software
rather than proprietary software written by or for one customer. (Source:
TechEncyclopedia).
       SBA purchased Oracle Federal Financials from World Wide Technology, Inc. (a
small disadvantaged business and a value-added reseller) off a GSA Multiple Award
Schedule. SBA policies require the agency to contract with small disadvantaged business
whenever practicable. SBA could have purchased the software directly from Oracle
Corporation for $60,728 less; however it chose to purchase from World Wide
Technology, Inc. to show its support for small business.

       SBA implemented JA2MS on October 1, 2001. However, due to the cost issues
for implementing Phase I, which have exceeded the entire budget for full JA2MS
implementation, Phases II and III have been put on hold.

B. Objectives and Scope

        The objectives of the audit were to determine whether: (1) the selection
methodology and the supporting documentation indicated that the system selected would
deliver the most functionality for the least cost, (2) there were adequate management
controls over the process of acquiring and implementing JA2MS, and (3) the system
performs as expected and meets user requirements.

       Fieldwork was performed in the Denver Finance Center and SBA Headquarters in
Washington, DC, from September 2001 to September 2002. Fieldwork included review
of documents, analytical procedures, and interviews with management, project staff and
JA2MS users in different program offices. The audit was conducted in accordance with
Government Audit Standards.
                                 RESULTS OF AUDIT

FINDING 1 The BTIC Received Biased and Misleading Information for Selecting a
          Financial Accounting System

        SBA’s BTIC received biased and misleading information on costs, benefits, and
alternatives on which to base its decision to select a new financial accounting system.
This biased and misleading information included: (1) an SBA statement of work which
reflected a predetermination to select a COTS/ERP software solution, (2) a JA2MS
business case with wording which was heavily weighted towards emphasizing an ERP
solution, (3) estimated benefits totaling $7.89 million for four years in the business case
which have not materialized, and (4) cost projections which were under estimated by $7.7
million through FY 2002. This occurred because SBA had biased the business case
analysis by emphasizing the need for an ERP. Additionally, there was no quality control
processes over the documentation and project cost and benefit information the BTIC
received and reviewed. As a result, the selection of a new financial accounting system
was basically flawed because the outcome was pre-determined by the inherent bias and
inaccurate supporting documents the BTIC received.

       The Clinger-Cohen Act requires agencies to improve their acquisition of
information technology by implementing efficient and effective capital planning
processes for selecting, managing, and evaluating the results of all of its major
investments in IT systems.

       The three facets of capital planning are:

       •   Selection – Select the IT projects that will best support mission needs and
           evaluate the project's costs, benefits and risks before spending significant
           amounts of money,
       •   Control – Ensure that the projects deliver the projected benefits in accordance
           with the projected costs and time frames, and
       •   Evaluate – Assess the project's impact on mission performance, modify the
           system to achieve maximum benefits, and revise the investment review
           process based on lessons learned.

       Our review of SBA’s attempt to utilize Clinger-Cohen capital planning
requirements to make an informed large-scale Information Technology investment
decision identified that SBA needs to revise the investment review process based upon
lessons learned from JA2MS.

a. The SBA Statement of Work Reflected a Predetermination to Select a
   COTS/ERP Product

         The SBA Office of Chief Information Officer (OCIO) issued a Statement of Work
for JA2MS in September 1999 which directed the Contractor to recommend a COTS/ERP
product. This occurred because SBA had predetermined the result which it desired. As a
result, the business case or cost and benefits analysis was irrelevant to true system
selection, but was used as an aid in influencing the BTIC and providing justification to
OMB.

       According to SBA’s Systems Development Methodology, a cost and benefits
analysis is to be performed on each competing alternative. The current system, proposed
system, and each alternative system identified are described and their associated benefits
and costs determined. These benefits and costs include developmental as well as
operational (both one-time and recurring) costs.

       The SBA Statement of Work contained the following wording:

               The last decade has seen a remarkable evolution of Commercial-Off-The-
               Shelf (COTS) applications that automate the wide variety of business roles
               and activities inherent in an enterprise like SBA. Such systems are called
               Enterprise Resource Planning Systems (ERP)…The goal – particularly for
               the SBA who struggles to quickly balance the Agency’s books – is to
               enable SBA’s business units to operate in a totally integrated fashion.
               COTS/ERP software modules control finance, procurement, and human
               resource functions…A COTS/ERP product will be recommended for
               selection at the end of phase I.

               The specific objective of this Task Order is to build a well-documented
               “Business Case” for the [JA2MS], from the point of view of the business
               areas in Human Resources, Procurement, the CFO and the CIO. The
               business case will document the business and technical need for the
               COTS/ERP product based on the SBA’s primary functional requirements
               and will document the product evaluation methodology and approach used
               to arrive at the final COTS/ERP product. Substantive analyses on research
               and evaluation methods, alternatives, cost/benefits, etc., will also be
               included in the business case. The final recommendation in the business
               case will detail the strengths of the selected product and the anticipated
               outcomes of implementation.

        It is clear from the Statement of Work that SBA did not ever desire that a valid
cost and benefits analysis be performed on all competing alternatives including the
existing system. From the beginning of the project, the contractor was expected to
present results for a COTS/ERP.

b. Wording of the Business Case and System Decision Paper Emphasized the Need
   for an Enterprise Resource Planning System

       The JA2MS Decision Paper and Business Case emphasized that SBA needed a
COTS/ERP system to replace SBA’s present financial accounting system. The wording
from these two documents was heavily weighted towards emphasizing the need for an
ERP. As a result, the JA2MS Business Case and resulting Decision Paper identified an
incorrect picture of what benefits an ERP would generate for SBA if the recommended
package was developed as SBA’s new accounting and financial management package.
        The following were the benefits identified in SBA’s Business Case if an ERP was
selected:

              ERP Benefits – The implementation of an ERP would make SBA
              compliant with JFMIP requirements and give the organization a modern
              back-office infrastructure. This infrastructure is important to the SBA, as
              it provides the foundation for other systems modernization
              initiatives…Additionally, an ERP infrastructure will allow SBA to fully
              participate in e-commerce and customer relationship management
              activities – requirements for the SBA to realize its vision of becoming a
              leading-edge 21st century institution. It should be noted that while an
              ERP is integrated, no ERP solution offered 100% integration. Oracle will
              still need to integrate travel and contracts management. But this amount
              of integration is a significant improvement over the current baseline
              system.

       In contrast, the wording in SBA’s Business Case for keeping SBA’s present
financial and accounting system, upgrading that system and moving it to a different
cross-service provider was:

              Remaining with FFS dictates that SBA continue business as usual –
              paper-intensive processes, duplicative efforts, errors in data entry and
              computations, delayed responses, minimal risk management and internal
              controls, and the inability to satisfy numerous regulatory authorities.
              Through extensive benchmarking analysis, the [Contractor] revealed that
              SBA productivity was hampered by inefficient manual processes and
              redundant tasks. The time dedicated to operational and administrative
              support is at the expense of higher-level management functions such as
              decision support, investment, and risk management. Remaining with FFS
              is a low-risk, low-improvement approach that will not address SBA’s core
              problems and inefficiencies.

       The JA2MS Decision Paper documented SBA’s approval for the JA2MS project
and the selection of Oracle Federal Financials. The JA2MS Decision Paper identified the
following:

              The business owners desired a fully integrated system solution for
              addressing operational gaps in performing human resource, procurement,
              and financial management functions. The requirements for successfully
              performing integrated human resource, procurement, and financial
              management have changed dramatically. However, SBA’s information
              systems have not been modernized to support JFMIP requirements.

              The Contractor was hired to analyze the Agency’s needs, define technical
              requirements, and evaluate integrated commercial-off-the-shelf enterprise
                    resource planning products. The business case evaluated the baseline
                    system against the JFMIP approved list of three products.

                    Remaining with the current system with a new cross-service provider
                    would cost SBA $6.3 million over six years. Whereas implementing the
                    recommended solution would cost SBA $11.1 million over the same six
                    years.

                    The recommendation of the JA2MS working group was Oracle Federal
                    Financials. The recommendation identified that implementing an ERP
                    requires the sacrifice of near-term objectives for long-term gain.

       The JA2MS decision was ultimately based upon the belief that SBA would attain
the benefits identified in the business case. The current CFO indicated that none of the
projected benefits have been realized. (See finding 1.c.)

c. Benefits of an ERP were Overstated

       The SBA JA2MS Business Case overstated the projected benefits of implementing
an ERP system. This occurred because there were no validity controls over the benefit
estimation process to ensure that calculated benefits were realistic and possible when the
new system was implemented. As a result, the projected benefits have not been realized
and the underlying reasons for selecting an ERP system have not been attained.

        The JA2MS Business Case provided an estimation of the benefits of three
alternatives under consideration. For both ERP system alternatives, the benefits were
estimated at $1,517,000 in FY 2002 and $2,127,000 per year thereafter. Increased
efficiencies in the areas of Finance, Human Resources, Procurement, and Information
Technologies would result in cost avoidance and dollar savings. SBA’s current costs in
these areas were compared to the lower costs of similar sized highly efficient businesses
and government agencies. The projected benefits are summarized in Table 1.

                                                         Table 1
                                             ERP Solution Benefits ($000)

                                          FY02               FY03           FY04           FY05
 Finance                                          430                860            860            860
 Reduction in interest payments                    20                 40             40             40
 Efficiencies in transaction processing           275                550            550            550
 Budgeting                                         84                168            168            168
 GL maintenance                                    24                 48             48             48
 Other financial processes                         28                 55             55             55

 HR                                               121                241            241            241
 Admin & Risk Mgmt                                 83                165            165            165
 Employee Staffing & Selection                     38                 76             76             76

 Procurement                                       60                120            120            120
 Requisition & PO Processing                       38                 75             75             75
 Problem Resolution                                23                 45             45             45

 IT                                                906                906            906            906
 Treasury-FFS                                      900                900            900            900
 SACONS                                              6                  6              6              6
                                  Total          1,517              2,127          2,127          2,127
        Ultimately the benefits projected for the alternative that SBA selected, i.e., the
ERP solution with outsourced maintenance, had no real support. The benefits were based
on the premise that implementing the Oracle system would make SBA more efficient in
the processing of its administrative expenses as compared to businesses and government
agencies of its size (based on benchmarking results). The benefits, which were expected
to reach $2.1 million in FY 2003 and total $7.89 million for four years were based on a
percentage reduction in costs, but there was no clear description of how these cost
reductions would be attained or how increased efficiencies would be achieved. Post-
implementation feedback from the current Chief Financial Officer indicates that none of
the estimated benefits have been attained since the system went into production.

d. Costs of an ERP System were Understated

        The SBA JA2MS Business Case significantly underestimated costs to develop an
ERP system, costs for system integration, as well as yearly costs to maintain the system.
This occurred because there were no validity controls over the cost estimation process to
ensure that the projected costs of the alternative systems were reasonable and realistic.
As a result, the costs to develop the initial phase of the JA2MS system have been more
than the entire projected costs of all three development phases.

        As of June 2002, SBA spent $14 million to develop and maintain JA2MS. The
business case estimated that SBA would have spent $6.4 million through FY 2002 and
would have achieved significantly more functionality than what the previous system had
delivered. As a result, JA2MS has been a more expensive system to build and maintain
than estimated in the business case. A comparison of planned to actual costs is presented
in Table 2.

                                         Table 2
                                   JA2MS Cost Variances
                     Fiscal Year     Projected    Actual Costs   Difference
                                       Costs
                    1998                     $0      $ 232,677    $ 232,677
                    1999                     $0      $ 964,704     $ 964,704
                    2000            $ 1,190,000    $ 6,046,051   $ 4,856,051
                    2001            $ 3,137,000    $ 4,417,785   $ 1,280,785
                    2002            $ 2,036,000    $ 2,424,497     $ 388,497
                    Totals          $ 6,363,000   $ 14,085,704   $ 7,722,704



       As can be seen from the table, SBA did not include costs incurred prior to FY
2000 in its cost projection, making the system appear less costly. Additionally, SBA
underestimated the costs to maintain JA2MS. Maintenance includes training employees,
Application Service Provider fees, consultant fees and annual licensing fees. The
business case estimated annual maintenance costs at $1.6 million annually. Actual
maintenance costs are approximately $2.7 million per year.


Recommendations:
       We recommend that the Chief Information Officer:

1A.    Revise the Investment Technology Investment Manual (ITIM) to ensure that in
       future large scale system development projects:
       • The contractor or Government entity that prepares the business case or cost
           benefits analysis works directly for the CIO or a CIO designee rather than the
           SBA sponsoring office,
       • A quality control process is created whereby a second entity not associated
           with the originator of the business case or cost benefit analysis validates the
           estimations that are used to ensure accuracy of the projections and estimates.

1B.    Update the Systems Development Manual to mandate that in future large scale
       system development projects:
       • Contractor Statements of Work for the business case or cost benefits analysis
           emphasize the need to fully and fairly evaluate all competing alternatives,
       • The narrative descriptions of the business case or cost benefits analysis are
           prepared with wording and factual representations as neutral as possible so as
           not to unduly bias the BTIC when making IT investment decisions,
       • The business case or cost benefits analysis contains only valid and supportable
           numerical projections of costs and benefits which are realistically and
           conservatively estimated and determined, and
       • SBA project management use Earned Value Management methods for all
           major IT investments.

Management Response:

        SBA disagreed with recommendation 1A as originally written (that the Chief
Operating Officer oversee cost-benefit analysis or business case preparation). SBA noted
that the Clinger-Cohen Act assigns the CIO responsibility to provide advice to the
Agency head and senior managers to ensure that IT resources are acquired and managed
in accordance with the Act’s provisions and in line with Agency priorities.

       SBA partially agreed with recommendation 1B. SBA suggested that the
recommendation be bolstered by requiring that Earned Value Management methods be
applied to all major IT investments so that planned versus actual cost, schedule and
performance information is reported to SBA project managers. Earned value is a
management technique that relates resource planning to schedules and to technical cost
and schedule requirements.

Assessment of Management’s Response:

       Management’s comments are responsive to the recommendations. We modified
recommendation 1A to require that the CIO rather than the COO oversee cost-benefit and
business case preparation. We also modified recommendation 1B to require Earned
Value Management methods be applied to all major IT investments.
FINDING 2 Conflicts of Interest in Selection and Implementation of a Financial
          Accounting System

        The JA2MS selection process was not totally free of inherent bias or conflicts of
interest towards one competing product. This occurred because SBA did not require a
separation of duties by contractors in the system selection process, system requirements
collection process and implementation phase of the JA2MS system. As a result, the
system selected has been more expensive than competing alternatives and the benefits
that were supposed to exist in the new system have not materialized.

        The Federal Acquisition Regulation (FAR) addresses Organizational and
Consultant conflicts of interest in Subpart 9.5. The underlying objectives are to prevent
the existence of conflicting roles that might bias a contractor’s judgment, and therefore
prevent an unfair competitive advantage. The applicable rule in FAR is subpart 9.505-2
which specifies that if a contractor provides material leading directly, predictably, and
without delay to a work statement, that contractor may not supply the system, major
components of the system, or the system services.

        While the contractor did not write a statement of work, the contractor was
engaged in conflicting roles. By writing a business case and other materials leading
directly and predictably to one of the competing alternatives, the contractor was able to
recommend a system which may have maximized the contractor’s involvement as
compared to other alternatives which the contractor may have had less development and
implementation work to perform.

a. JA2MS Implementation Plan Written Prior to the JA2MS Business Case

        An initial JA2MS implementation plan was written in March 2000, prior to the
JA MS business case (April 2000). This initial JA2MS implementation plan identified
  2

that the software to be implemented would be Oracle Federal Financials. The JA2MS
implementation plan also included a description of implementation methodology for the
software, a work plan and a staffing schedule. After the initial JA2MS implementation
plan, SBA had the same contractor write the JA2MS business case. The business case
recommended that SBA implement Oracle Federal Financials after a review of the
competing alternatives. As a result, the Contractor performed inherently conflicting roles
in assessing the costs and benefits of the competing software products while having
already planned for software implementation with one of the competing products.

        According to SBA’s Information Technology Investment Management (ITIM)
Guide, a business case is to be developed once a potential need for a new system is
determined. Additionally, SBA’s Systems Development Methodology requires a cost
benefit analysis be performed on each competing alternative. The current system,
proposed system, and each alternative system identified should be described and their
associated benefits and costs determined. These benefits and costs include
developmental as well as operational (both one-time and recurring) costs.

       The business case is required by OMB and recommended by GAO for making
information technology decisions as a part of Clinger-Cohen guidelines. Therefore, the
business case should be performed by an organization that has no obvious or potential
inherent conflicts of interest. Since the business case makes projections as to future costs
and benefits of a new system, compares the competing alternatives, and makes
recommendations as to which alternative to select; it must be a totally objective
document. Additionally, the organization that develops the business case must not have a
financial stake in the outcome of the selection process. The ultimate selection of Oracle
indicated that the contractor would be given further work in requirements collection and
system implementation. Had a competing product been selected, this may have meant
reduced work for the contractor, but a much lower ultimate system implementation and
operational cost to SBA.

b. The same Contractor Collected System Requirements Documentation and
   Developed the System

        System requirements documentation and systems development were performed by
the same contractor. While these functions are not necessarily mutually exclusive, the
contractor could have written system requirements in such a way as to bias the
requirements to a certain product or software suite. Since this same contractor also wrote
the JA2MS business case and had previously written a preliminary implementation plan
for a particular product, this, therefore created a conflict of interest since the contractor
had the ability to document requirements in a manner which would ultimately
recommend a particular software solution. As a result, system requirements were
ultimately biased towards one competing product which was ultimately selected.

       While there are no laws or regulations which would prohibit the same contractor
from collecting system requirements and designing and developing the system, such
functions should be separated as the duties are quite different from each other. Generally,
to avoid potential conflicts of interest and to ensure that system requirements and system
design and development are performed by the contractor with the greatest expertise in
each area, a separation should occur in these two vital areas.

Recommendations:

       We recommend that the Chief Operating Officer:

2A.    Ensure that for future systems developments efforts, SBA comply with Federal
       Acquisition Regulations regarding separation of contractor duties. Specifically,
       SBA should separate system selection activities such as preparation of a business
       case or cost and benefits analysis from development activities such as collection
       of system requirements, and system design and implementation.

2B.    Revise the Information Technology Investment Manual (ITIM) to ensure that the
       same contractor is not used for system recommendation activities (including
       preparation of a business case) and system design and implementation activities.

Management Response:

        SBA partially agreed with recommendation 2A. SBA agreed that separation of
duties should be enforced under most circumstances. However, SBA disagreed that
system requirements collection should be separated from system design and
development, citing additional costs and the developer’s need to verify requirements to
ensure system functionality.

         SBA partially agreed with recommendation 2B. SBA noted that the contract
made with the developer to analyze SBA’s financial accounting capabilities and
recommend a replacement system was separate and distinct from the contract made with
the same developer (through FEDSIM) to implement the system. SBA further noted that
there was no guarantee that the developer would receive any contract award subsequent
to its completion of a business case.

Assessment of Management’s Response:

        Management’s comments are responsive to the recommendations. We modified
recommendation 2A to allow system requirements to be collected by the same entity that
designs and develops the system. We did not modify recommendation 2B because
regardless of the number of contracts awarded, system recommendation and selection
activities should not be performed by the same contractor who is designing and
implementing the systems.
FINDING 3 Demonstrated JA2MS Database and all Software Purchased not
          Implemented

       As a part of JA2MS, SBA did not implement the Oracle database management
system that had been demonstrated and approved by the BTIC. Additionally, SBA
purchased and bought license updates for software modules which it has never
implemented. As a result, SBA has not achieved the functionality of the demonstrated
system and has utilized a version of the system that is obsolete and unsupported by the
vendor.

a. Planned Database and Application Release Not Implemented

       The original documentation for purchasing and implementing JA2MS was for
Oracle Applications release 11i and Oracle relational database version 8i as SBA’s
financial management system. However, SBA implemented Application release 11.0.3
and Oracle database version 8.0.5. According to SBA, this occurred because Oracle
Applications Release 11i was not available during implementation and the database
version 8i was not compatible with Application Release 11.0.3. As a result, SBA
implemented an unsupported version of the Oracle database without a formal and
documented assessment of the risks and potential adverse impacts on system
development.

       According to Federal Acquisition Regulation 46.501, acceptance constitutes
acknowledgement that the supplies or services conform with applicable contract quality
and quantity requirements.

        Oracle Application Release 11.0.3 and database version 8.0.5 are older versions
of Oracle Federal Financials and not the versions that were demonstrated, evaluated, and
recommended for implementation. Additionally, this modification was not recorded in
SBA change management procedures, nor reported to the BTIC. SBA’s SDM requires
that project management report changes to a Change Control Board (CCB) for approval
and that procedures be established to ensure that changes are accomplished in an
organized manner with absolute traceability and accountability. In actuality, the database
version 8.0.5 was no longer supported by Oracle at the time of implementation, and
therefore Oracle would no longer correct deficiencies in that software and make updates
and patches available.

       Documentation from Oracle identifies that the Oracle database 8i can be used
with the 11.0.3 applications software if the UNIX server is properly partitioned.

        SBA management has recently issued a solicitation for a new ASP/Cross service
provider that will upgrade the software to 11i and host a stable and cost effective
operational environment. The new contract will be for a base year with four optional
yearly renewals.

b. Other Oracle Software Purchased and Not Implemented

       SBA purchased Oracle software components totaling $523,083 in FY 2000 which
have not been utilized. This partially occurred because SBA has halted further JA2MS
implementation due to cost issues from implementing Phase I (the financial system). As
a result, SBA does not utilize over 33 percent of the dollar value of the software
purchased. Additionally, SBA spent an additional $65,061 for year 2002 license updates
for these unused software programs.

       Table 3 summarizes the costs of the unused software components that SBA has
incurred since 2000.

                                         Table 3
                       JA2MS Software Purchased and Not Implemented
                                    2001 License                 Totals 2001 &
             Program                 &Updates      2002 Update       2002
             Warehouse Builder           $23,172        $4,490        $27,662
             Express Server              $73,966       $14,331        $88,297
             Financials and Sales
             Analyzer                    $84,037        $9,739        $93,776
             Human Resources            $191,360       $17,262       $208,622
             Advanced Benefits           $90,052       $11,508       $101,560
             HR Intelligence             $56,283        $7,192        $63,475
             Training
             Administration               $4,216         $539           $4,755


             Totals                     $523,086       $65,061       $588,147

        The Oracle components that are not utilized include: Warehouse Builder, Express
Server, Human Resources (HR), HR Intelligence, HR Training Administration and
Financial and Sales Analyzer.

Recommendations:

       We recommend that the Chief Information Officer:

3A.    Inform the BTIC when large-scale development projects need to be materially
       altered during development.

3B.    Perform a second-party review and analysis of proposed changes to large-scale
       development projects when those changes would materially affect the system
       under development.

3C.    Ensure full and proper configuration management and change control in future
       large-scale development efforts.




       We recommend that the Chief Financial Officer:
3D.    Review the JA2MS procurement contract to determine if annual license fees for
       software purchased but not currently implemented (equaling $65,061 in FY 2002)
       can be suspended until the software is actually implemented.

Management Response:

        SBA agreed with the recommendations. For recommendation 3D, SBA considers
the issue a contracting and legal issue and will refer it to SBA’s Office of Procurement
and Grants Management and the Office of General Counsel for resolution.

Assessment of Management’s Response:

       Management’s comments are responsive to the recommendations.
Finding 4 JA2MS System Security does Not Fully protect SBA

        JA2MS was not fully accredited prior to being put into production. Additionally,
other aspects of JA2MS may not allow for complete confidentiality of sensitive SBA
personnel information. These security issues are part programmatic, part structural and
part issues with the Oracle software. As a result, the JA2MS system is not fully secure
and potential breaches of security could occur and go undetected.

a. JA2MS was Not Timely Authorized to Process Information

         SBA initially conducted an interim Certification and Accreditation (C&A) review
prior to putting JA2MS into production at a temporary application service provider (ASP)
in October 2001. However, this was a conditional C&A and was supposedly valid for
only 180 days or until the system was transferred to the permanent ASP. A full C&A
was not finalized prior to placing the system into production at the permanent site. As a
result, the JA2MS system operated without a valid accreditation for almost one year and
the vulnerabilities and their associated remedial actions were not known and
corresponding corrective actions not timely undertaken for that time frame.

       OMB Circular A-130, Appendix III requires that computer systems be certified
and accredited before being put into production. Additionally, the C&A process
mandates that a security plan and a risk assessment are performed before the system is
implemented.

        The C&A was finalized for JA2MS at the permanent ASP almost one year after
the system was transferred to the permanent site. Overall risk exposure was rated as
high, and recommendations were made for changes that, if implemented, would reduce
overall system risks to low. Some of the risks identified were exactly the same risks as
when JA2MS was operated at the interim ASP. The continuing existence of these risks
indicates that sufficient attention has not been paid to JA2MS security.

b. [ FOIA Exemption 2]
c. System Audit Trails and Logging are Not Enabled

       Audit trails and logging are not enabled in the JA2MS system environment.
According to OCFO this is because the system slows down considerably beyond what is
reasonable when audit trails are enabled. However, from discussions with OCFO and
OCIO, we believe that this is due to not choosing to log and audit only those security
relevant events and items that should be necessary to identify if a perpetrator is trying to
mis-use the system or enter potentially fraudulent transactions.

      According to the JFMIP framework, financial management systems in the federal
government must be designed to provide a complete audit trail to facilitate audits.

        Audit trails are a necessary security component because they provide records of
access and changes to system records, and are a mechanism to ensure user accountability.
Without an adequate system of audit trails, sufficient information is not gathered to
perform investigations of security incidents and for ongoing monitoring of user activities.
This issue was previously made known to SBA in an OIG memorandum on October 9,
2001. The SBA CIO and CFO responded to OIG that audit trails would be enabled for
JA2MS in the 2nd quarter of FY 2002. However, as of December 15, 2002, audit trails
have yet to be implemented in JA2MS.

Recommendations:

       We recommend that the Chief Information Officer:

4A.    Complete Certification and Accreditation reviews prior to placing new SBA
       major applications and general support systems into production.

       We recommend that the Chief Information Officer in conjunction with the Chief
Financial Officer:

4B.    Work with the vendor for Oracle Federal Financials to create an alternate
       identifier for SBA personnel to ensure that employee SSN’s are not visible or
       accessible to users.

4C.  Determine what actions and events to audit and enable the JA2MS audit trails for
     those actions and events.
Management Response:

       SBA agreed with the recommendations. SBA noted that recommendation 4C has
already been implemented.

Assessment of Management’s Response:

       Management’s comments are responsive to the recommendations.
Finding 5 System Testing Prior to Implementation was Not Adequate

        JA2MS was placed into production without sufficient and complete testing of
functions and interfaces. This occurred because SBA was committed to placing JA2MS
into production on its scheduled implementation date. As a result, processing errors and
user confusion prevented JA2MS from operating as intended. Additionally, some of these
problems could have been mitigated by running JA2MS in parallel with FFS.

a. Some JA2MS System Components Failed Testing of Functions and Interfaces

         JA2MS System testing was not completed successfully prior to system
implementation. There was evidence that many tests failed while others were not
performed at all. However, SBA was committed to implement JA2MS by October 1,
2001 and allowed the system to be placed into production with errors and defects. As a
result, users experienced errors and considered the system unreliable.

        The SBA System Development Methodology (SDM) requires successful testing
of the complete system, including all the functions and all the logic paths of each
software module.

        Several interfaces were not completed by the system activation date, however, the
system was placed into production and the contractor continued working to complete the
interfaces. The interfaces that were not fully complete and tested were:

            •   Bank of America,
            •   Federal Express, and
            •   USDA National Finance Center Payroll.

         Additionally, the year-end closing process had not been tested. The Bank of
America and Federal Express interfaces caused problems to users early in system
production and the first Year-end close (October 2002) took over a week to accomplish.
These problems might have been avoided had the system been fully tested prior to putting
it into production.

b. An Independent Verification and Validation was Not performed

        There was no Independent Verification and Validation (IV&V) or project audit
for JA MS. This occurred because of SBA’s insistence on implementing JA2MS by its
      2

planned implementation date. Additionally, the costs of implementing JA2MS exceeded
its planned budget. As a result, the JA2MS system experienced major problems early on,
some of which remain uncorrected, and can be partially attributed to the lack of an
IV&V.

        The SBA SDM requires the independent verification and validation of software
testing results by a third party.

        SBA’s Quality Assurance policy for IT projects specifies that independent and
objective verification of project results be performed. An independent reviewer is more
likely to be impartial than a reviewer or a contractor with a vested interest in the project.
Recommendation:

      We recommend that the Chief Information Officer:

5A.   Ensure that newly developed large-scale major applications and general support
      systems are fully tested before implementation and that an Independent
      Verification and Validation review is performed after system testing but prior to
      placing system into production.

Management Response:

      SBA agreed with the recommendation.

Assessment of Management’s Response:

      Management’s comment is responsive to the recommendation.
Finding 6: JA2MS is Not Fully JFMIP Compliant and does Not Meet System
           Requirements

       JA2MS does not fully meet JFMIP requirements, even though Oracle Federal
Financials is certified as being JFMIP compliant. Additionally, JA2MS does not meet a
number of major system requirements including many of the aspects of an ERP. This has
negated many of the initial reasons that JA2MS was selected to be SBA’s financial
system. As a result, SBA has a system that does not meet its requirements, nor perform
as expected.

      According to the JFMIP framework, financial management systems in the federal
government must be designed to:

         •       Collect accurate, timely, complete, reliable, and consistent information;
         •       Provide for adequate agency management reporting;
         •       Facilitate the preparation of financial statements, and other financial reports in
                 accordance with federal accounting and reporting standards; and
         •       Provide information to central agencies for budgeting, analysis, and government-
                 wide reporting, including Consolidated Financial Statements.

a.               A JA2MS Feature does Not Adequately Report the Results of Financial
                 Operations

       SBA purchased a financial reporting system called “Financial Analyzer” for
$93,776 from World Wide Technology, Inc. Financial Analyzer proved to be unstable
and unreliable. As a result, SBA abandoned using it for reporting purposes. However,
we could not determine whether SBA ever tried to gain a refund for this non-functioning
software.

       A second tool for financial reporting called “Discoverer” has been used to create
budgeting and other accounting reports. However, SBA users cannot produce needed
financial reports on demand as there are only ten user licenses and the software is not
web-enabled.

b.               JA2MS Automatically Initiated a Number of Duplicate Payments

       During FY 2002 four duplicate payments totaling over $278,000 were initiated by
             2
the JA MS system. One of the recipients notified SBA and three other duplicate
payments were then identified by the Denver Finance Center. System edits which should
have identified and prevented this situation did not perform as expected.

c.           Certain Transactions and Vendor Identifiers Cannot be Modified in JA2MS

       Requisitions and purchases which have been approved cannot be modified in
     2
JA MS. SBA has been creating a new document with virtually the same voucher or ID
number with a letter or numeral appended to the document number. For changes to
vendor identifiers (names or addresses), a monetary amount is required to be entered with
the change to the vendor identifier. SBA has been adding one cent with the change to the
vendor file. This amount will stay outstanding and need to be closed within JA2MS at the
end of the year.

d.     JA2MS does Not Always Successfully Cancel a Transaction

        Purchase orders and other requisitions are not always successfully cancelled
within JA2MS. When a number of transactions were cancelled, the system did not
automatically de-obligate funds and return the transaction to the requisition phase. SBA
personnel have had to research the entire general ledger within JA2MS and ensure that the
transaction cancellation successfully de-obligated funds. This has caused SBA offices to
keep track of their spending and budgeting with spreadsheets and other cuff-records.

e.     Funds Verification is Slow

        JA2MS does not timely verify the availability of budgeted amounts against
potential expenditures when entering purchase orders or requisitions. The JA2MS system
queries all budget groups and for all time periods, not just the ones entered for
verification. As a result, the funds verification can take from several minutes to half an
hour to complete one transaction.

        JA2MS usefulness to managing funds on a day-to-day basis is therefore deficient
and does not measure up to providing the information necessary to operate SBA
efficiently and effectively. Therefore, JA2MS utility is marginal at best and it has a
number of functional shortcomings that make it a poor choice for today’s financial
management needs. The software that has never been implemented should be returned
and a refund sought from the vendor.

Recommendations:

       We recommend that the Chief Financial Officer:

6A.    Seek monetary recovery from World Wide Technology, Inc. for $93,776, or an in-
       kind contribution of additional Oracle Discoverer licenses to compensate for the
       unusable Financial Analyzer software.

6B.    Enable users to make dollar or non-dollar modifications to spending documents
       without the creation of a new record.

6C.    Follow-up with Oracle to ensure that JA2MS is corrected so that finally closing
       documents result in the restoration of funds.

       We recommend that the Chief Financial Officer in conjunction with the Chief
Information Officer:

6D.    Determine if funds checking can be expedited in the current JA2MS hardware or
       software configuration.

Management Response:
[FOIA Exemption 5]
Assessment of Management’s Response:

       Draft recommendation 6B was deleted from the report after we determined the
condition had been corrected prior to issuance of the draft report. Management’s
comments are responsive to all of the other recommendations.
